<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS
                     KAY GRANGER, Texas, Chairwoman
 JERRY LEWIS, California
 FRANK R. WOLF, Virginia
 TOM COLE, Oklahoma
 MARIO DIAZ-BALART, Florida
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio                NITA M. LOWEY, New York
                                    JESSE L. JACKSON, Jr., Illinois
                                    ADAM B. SCHIFF, California
                                    STEVEN R. ROTHMAN, New Jersey

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
                    Susan Adams, and Clelia Alvarado,
                            Staff Assistants

                                ________

                                 PART 2
                           FOREIGN OPERATIONS
                  FISCAL YEAR 2012 BUDGET JUSTIFICATION

                  OVERVIEW OF THE BUDGET JUSTIFICATION
                       ANNEX: REGIONAL PERSPECTIVE

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
PART 2--STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS 
                                FOR 2012
                                                                      ?

STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS
                     KAY GRANGER, Texas, Chairwoman
 JERRY LEWIS, California            NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia            JESSE L. JACKSON, Jr., Illinois
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 MARIO DIAZ-BALART, Florida         STEVEN R. ROTHMAN, New Jersey   
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
                                    
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
                    Susan Adams, and Clelia Alvarado,
                            Staff Assistants

                                ________

                                 PART 2
                           FOREIGN OPERATIONS
                  FISCAL YEAR 2012 BUDGET JUSTIFICATION

                  OVERVIEW OF THE BUDGET JUSTIFICATION
                       ANNEX: REGIONAL PERSPECTIVE

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 67-001                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota           
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    

               William B. Inglee, Clerk and Staff Director

                                  (ii)

<TEXT NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
